OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PAKISTAN’S 

FAMILY ADVANCEMENT FOR 

LIFE AND HEALTH PROGRAM

AUDIT REPORT NO. 5-391-10-012-P 

AUGUST 31, 2010 





MANILA, PHILIPPINES

Office of Inspector General


August 31, 2010


MEMORANDUM

TO:    	       USAID/Pakistan Director, Robert J. Wilson

FROM: 	        Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	      Audit of USAID/Pakistan’s Family Advancement for Life and Health Program
               (Audit Report No. 5-391-10-012-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in Appendix II.

This report contains one recommendation to assist the mission in improving its oversight of the
program. On the basis of the information provided by the mission in its response to the draft
report, we determined that a management decision has been reached on that recommendation.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.
CONTENTS

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 4 

     Financial Audits of Pakistani
     Subrecipients Were Not Completed ............................................................................ 4 


Evaluation of Management Comments ......................................................................... 6 


Appendix I—Scope and Methodology........................................................................... 7 


Appendix II—Management Comments.......................................................................... 9 


Appendix III—FALAH Indicators and Achievements Through 

December 31, 2009........................................................................................................ 10 

SUMMARY OF RESULTS

USAID/Pakistan works closely with the Government of Pakistan to improve the health
and well-being of the Pakistani people. The country has a relatively high rate of
population growth, and in 2009 the estimated Pakistani population was about
181 million—the world’s sixth most populous country. By the year 2020, the population
is expected to reach 208 million.

In June 2007, USAID/Pakistan signed a cooperative agreement with the Population
Council to implement the Family Advancement for Life and Health (FALAH) Program.
The program aims to increase demand for and utilization of birth spacing and family
planning services in 20 districts (later increased to 26 districts) in 4 of Pakistan’s
provinces. FALAH is a 5-year, $60.4 million program with an implementation period
from June 1, 2007, to May 30, 2012. As of April 28, 2010, $48.4 million had been
obligated and $26.8 million expended.

FALAH focuses on promoting birth spacing for improved health of Pakistani mothers and
children and social marketing of family planning commodities. Working in predominantly
rural districts, FALAH fosters public and private partnerships for the delivery of family
planning services. The Population Council and other organizations assist in the
partnerships to satisfy couples’ unmet needs for family planning information, services,
and products.

The objective of the audit was to determine whether the program was achieving its main
goals of increasing demand for family planning services and improving family planning
services in the public and private sectors in selected areas of Pakistan.

The audit found, for the items tested and in the geographical areas we were able to visit,
that FALAH was achieving its main goals, as evidenced by the following:

•	 Increased demand for family planning services. Data on the increase in demand
   for birth spacing and family planning services were not expected to be measured
   until the completion of a midterm program survey in July 2010. However, the audit
   tested the data and verified that acceptable progress was being made in program
   activities designed to increase demand for such services.               For example,
   interpersonal communication and community mobilization activities provided family
   planning information to 2,077,059 married women of reproductive age and men,
   representing 32 percent of the project’s 5-year goal. This figure is significant since
   the majority of these activities took place in the first two quarters of Year 3 of the
   program (June–December 2009), demonstrating how quickly FALAH’s partners have
   been moving. Program messages on birth spacing and family planning services
   have blanketed the media. Almost 28,000 commercial spots were aired during
   November and December 2009 alone. FALAH developed the television and radio
   commercials to increase understanding and acceptance of birth spacing. These
   messages included a jingle that was aired extensively on FM radio stations in
   program districts as well as on national broadcasts of Radio Pakistan.

•	 Improved family planning services in the public sector. FALAH has met its goal
   of placing a team of master trainers in each of the 26 program districts. The trainers


                                                                                        1
    will support group meetings in the community and produce changes in behavior and
    attitudes to help public health care providers better serve their clients. Furthermore,
    59 percent of all public service delivery points in the FALAH districts have trained
    providers for family planning counseling and services in their facilities. The program
    plans to equip 80 percent of public service delivery points in program districts to
    provide appropriate family planning services by the end of the program. In addition,
    the program has provided in-service training of medical and paramedical public
    health care providers in all 26 program districts. The training emphasizes the need
    to provide family planning services proactively to clients. As of December 31, 2009,
    FALAH had provided such training to over half of the public health care providers in
    each of the 26 districts covered by the program. In addition, 53 percent (170 of 320)
    of district managers had received leadership training on improving access to birth
    spacing services. The program also endeavors to ensure better logistics for
    supplying contraceptives at the district level, including training district managers to
    ensure that family planning products are available when needed.

•	 Improved family planning services in the private sector. Improved family
   planning services in the private sector were being led by Greenstar Social Marketing,
   one of three Pakistani nongovernmental organizations (NGOs) that participate in the
   program.1 The program has aimed to expand the number of Greenstar health care
   providers to 1,000 in the program’s rural areas, and as of December 31, 2009,
   Greenstar had established 557 new providers and completed training for 268 of
   them. In addition, Greenstar completed refresher training for 4,305 private sector
   health care providers that were already part of the Greenstar franchise system. To
   ensure the quality of training and services provided, Greenstar performed quality
   assurance checks for all of its 9,323 providers. In addition, Greenstar initiated pilot
   interventions to expand private sector involvement by conducting informative
   meetings at factories and other work places on the benefits of birth spacing along
   with referral cards to nearby service outlets. Greenstar is also operating a national
   hot line serviced by its physicians. Callers are counseled and referred to nearby
   Greenstar-franchised outlets for necessary services and support.

Overall, the audit found that participants we interviewed—Pakistani Government
officials, trainers, and trainees alike—were very satisfied with the FALAH program.
Although the audit did not systematically interview program beneficiaries, the audit team
did meet with a 29-year-old mother of four in Karachi who was a beneficiary. She stated
that she had heard about FALAH 2 years ago, after the birth of her third child. After
learning more about FALAH family planning services, she and her husband decided to
choose a more permanent method of family planning (an intrauterine device) to meet
their needs for birth spacing. For a list of indicators and achievements reviewed by the
audit, see Appendix III.

However, notwithstanding the accomplishments discussed above, the audit found that
none of the required financial audits had been completed for the Pakistani subrecipients
helping to implement FALAH. Financial audits should have been completed for three
such subrecipients for fiscal years 2008 and 2009.



1
 The Population Council had three subaward agreements with Pakistani NGOs: Greenstar Social
Marketing, Health and Nutrition Development Society, and Rural Support Programmes Network.


                                                                                         2
This report makes one recommendation to assist the mission in improving its oversight
of the program. On the basis of the information provided by the mission in its response
to the draft report, we determined that a management decision has been reached on that
recommendation.

USAID/Pakistan’s written comments are included in their entirety (without attachments)
in Appendix II.




                                                                                     3
AUDIT FINDINGS

Financial Audits of Pakistani
Subrecipients Were Not Completed
According to USAID’s Automated Directives System (ADS) 591.3.2.1, foreign nonprofit
organizations that expend $300,000 or more during their fiscal year in USAID awards
must have an annual audit conducted of those funds in accordance with the Guidelines
for Financial Audits Contracted by Foreign Recipients, published by the Office of
Inspector General. Prime recipients, such as the Population Council, are responsible for
monitoring their subrecipients and ensuring that non-U.S. subrecipients are audited in
accordance with the guidelines. (U.S. nonprofits all fall under the Single Audit Act2 and
receive audit coverage under a different mechanism). Finally, Modification 4 to the
cooperative agreement between the mission and the Population Council also specified
that required financial audits must be completed.

However, the audit found that none of the required financial audits for the non-U.S.
subaward agreements had been completed. The audit determined that the Population
Council’s cooperative agreement budget for FALAH provided up to $42.1 million to
subawardees under the program. The Population Council reported entering into six
subaward agreements with consortium partners that were expected to help implement
the FALAH program. Three of these six agreements were with Pakistani nonprofit
organizations: Greenstar Social Marketing, Health and Nutrition Development Society,
and Rural Support Programmes Network, all of which are subject to USAID financial
audit requirements. The three subaward agreements with non-U.S. nonprofits totaled
about $24.7 million (see Table 1 below).

     Table 1. FALAH Program Organizations, Award Amounts, and Award Periods
                                                           Award            Award            Award
      Program Implementing Partners’ Names                 Amount            Start            End
                                                            (US $)           Date             Date
    Primary Implementer
     Population Council                                  60,390,566       06/01/2007       05/30/2012

    U.S. Subaward Implementers
     Save the Children Federation, Inc.                   3,526,892       12/20/2007      05/31/2012
     Mercy Corps                                          3,054,501       12/20/2007      05/31/2012
     Jhpiego Corporation                                  2,780,331       01/04/2008      05/31/2012
     Total: U.S. Subaward Implementers                    9,361,724

    Pakistani Subaward Implementers
     Greenstar Social Marketing                          22,999,737       01/08/2008      05/31/2012
     Health and Nutrition Development Society             1,234,090       12/20/2007      05/31/2012
     Rural Support Programmes Network                       463,715       02/07/2008      05/31/2012
     Total: Pakistani Subaward Implementers              24,697,542


2
 Congress enacted the Single Audit Act of 1984, Public Law 98-502, and the Single Audit Act Amendments
of 1996, Public Law 104-156, to improve auditing and management of federal funds provided to states, local
governments, and nonprofit organizations.


                                                                                                        4
The financial audits were not completed for two reasons. First, although the audit
requirement was originally inserted into the subawards by the Population Council, the
cooperative agreement between the mission and the Population Council did not
specifically require the financial audits until Modification 4 was issued in July 2009.
Second, the responsible staff members of the Population Council and Greenstar (the
largest subawardee), said they were too busy with other program issues or simply forgot
to follow up to ensure that the financial audits were completed.

Financial audits prevent costs from being paid from program funds if, under the
agreement terms, the costs are not allowable, allocable, or reasonable. Because the
Population Council and its non-U.S. consortium partners who had received subawards
did not comply with USAID financial audit requirements, USAID/Pakistan has minimal
assurance that FALAH program expenditures claimed and paid are allowable, allocable,
and reasonable. As a result, this audit makes the following recommendation:

       Recommendation 1. We recommend that USAID/Pakistan require the
       Population Council to prepare and implement a plan of action for
       completing all required financial audits for non-U.S. nonprofit
       organizations that received funding under the Family Advancement for
       Life and Health Program.




                                                                                     5
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Pakistan concurred with the one
recommendation in the report. The Office of Inspector General has reviewed the
mission’s response to the draft report and determined that a management decision has
been reached on the recommendation. A determination of final action will be made by
the Audit Performance and Compliance Division upon completion of the planned
correction action.

In response to Recommendation 1, USAID/Pakistan stated that the mission has asked
the Population Council to develop and implement a detailed plan of action for completing
all the required financial audits. As a result, a management decision has been reached
on Recommendation 1. Before final action can be achieved, the mission should obtain
the detailed plan of action, which the Population Council will implement. The mission
has set a due date of August 31, 2010, for the plan.




                                                                                      6
                                                                                 Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The purpose of this audit was to determine whether the Family Advancement for Life
and Health Program was achieving its main goals of increasing demand for family
planning services and improving those services in the public and private sectors in selected
areas of Pakistan.

We conducted the audit fieldwork in Pakistan from March 30 through April 28, 2010, and
covered the program activities implemented by the Population Council from the
cooperative agreement’s inception through April 2010. We conducted audit fieldwork at
USAID/Pakistan and the Islamabad offices of the Population Council, one of its
subaward consortium partners—Greenstar Social Marketing (Greenstar)—and KfW
Bankengruppe (a German development bank). Additionally, we visited the offices of the
Government of Pakistan’s Ministry of Health and the Ministry of Population Welfare in
Islamabad, along with site visits in Karachi, Pakistan, to learn more about the program
activities in family planning and birth spacing that were taking place there. As part of the
audit, we met with program subawardees, trainers, Pakistani Government officials, and
other stakeholders involved in family planning issues.

The worsening security situation in Pakistan forced us to cancel plans to visit several
Pakistan locations, such as Quetta, Zhob, Thatta, Mardan, and Mansehra. Also, security
restrictions caused us to modify plans to visit and meet with medical staff at clinics in the
Karachi area who had partnered with Greenstar to provide family planning services.
Therefore, we could not pursue some of our planned visits with program clinic
beneficiaries. However, we believe that these restrictions did not adversely affect the
conclusions in this report.

As part of the audit, we assessed USAID/Pakistan’s significant internal controls that were
in place to monitor the program activities. The assessment covered controls related to
whether the mission had (1) conducted and documented site visits to evaluate and monitor
progress, (2) required and approved the implementer’s annual implementation plans, and
(3) reviewed progress reports that were submitted. The assessment also covered
controls related to the contents of the agreement officer’s technical representative’s files
to help determine the adequacy of program oversight. Additionally, we reviewed the
mission’s annual self-assessment of internal controls in accordance with the Federal
Managers’ Financial Integrity Act of 1982.3 Finally, we reviewed relevant prior audit
reports.


3
    Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.


                                                                                           7
Methodology
At the time of the audit, the Population Council’s Year 3 annual implementation plan had
been approved by the mission. However, we determined that the plan had a matrix of
activities and tasks with indicators that were stated mostly in qualitative terms, and many
of them were administrative. This structure might be acceptable for some indicators—
which by the nature of the activity and tasks should be measured in qualitative terms—
but others would have been more effectively described and measured in quantitative
terms. Therefore, to test for achievement of reported results, we judgmentally selected
26 key indicators from the Population Council’s “Program and Financial Review,” dated
January 2010, which the Population Council had used to report to the mission results
achieved toward accomplishing program objectives as well as main goals. Of the 26
items tested, 2 could not be sufficiently supported to satisfactorily verify completion of
those items. The two items related to (1) the number of private sector interventions
initiated by Greenstar in factories and other workplaces, and (2) the couple-years of
protection4 achieved to date. Although the Population Council was unable to provide
satisfactory support for these two items, our overall conclusion remained unchanged
that, for the items tested and the geographical areas visited, the program’s main goals
were being achieved.

We interviewed officials and staff from USAID/Pakistan, the Population Council, the
Ministry of Health, the Ministry of Population Welfare, Population Council subawardees,
program trainers, and trainees under the program. We also reviewed and analyzed
relevant documents at offices of the mission and the implementer. This documentation
included annual implementation plans, the cooperative agreement and its modifications,
subaward agreements, site visit and other monitoring reports, progress reports, and
financial reports and records. Regarding the monitoring and evaluation system at the
implementer, we reviewed electronic files to help determine whether accurate results
were being reported.

The implementer had planned to perform its activities under the cooperative agreement on
the basis of tasks and expected results identified in four program result areas. We
judgmentally tested significant tasks identified in these areas. We reviewed the supporting
information for tasks that the Population Council had claimed to have completed to verify
whether the tasks had been completed. We had originally planned to review claimed
achievements by the Population Council in the four result areas in several different
geographic locations. However, because of the worsening security situation across the
country, we had to cancel plans to visit a number of locations. Therefore, we have
limited our conclusions to the items tested during the audit, and the results of the audit
tests cannot be projected to the population as a whole.




4
 A couple-year of protection (CYP) is a common indicator used to measure the impact of family planning
activities. CYP is the estimated number of couples protected from unplanned pregnancies during a 1-year
period.


                                                                                                     8
                                                                                 Appendix II



MANAGEMENT COMMENTS

(Reserved for Management Comments)




MEMORANDUM 


Date:          August 16, 2010

To:            Bruce N. Boyer
               RIG/Manila

From:          Robert J. Wilson /s /
               Mission Director

Subject:       Management Comments
               Audit of USAID/Pakistan’s Family Advancement for Life and Health
               Program (Audit Report No. 5-391-10-012-P)

Reference:     Draft audit report No 5-391-10-012-P dated August 05, 2010.

In response to the referenced draft audit report, please find below the management
comments on the one recommendation included therein:

Recommendation 1: We recommend that USAID/Pakistan require the Population
Council to prepare and implement a plan of action for completing all required
financial audits for non-U.S. nonprofit organizations that received funding under
the Family Advancement for Life and Health Program.

Management Comments:

Mission management concurs with this recommendation. Mission has asked Population
Council to develop and implement the detailed plan of action for completing all the
required financial audits for non-U.S. nonprofit organizations that received funding under
the Family Advancement for Life and Health Program. Mission has also requested a copy
of the plan from Population Council. (Email Attached).

As all necessary actions have been taken, the Mission requests closure of this
recommendation upon issuance of the subject audit report.

Atch: a/s

CC: ASIA/SCAA: Andrew Plitt



                                                                                          9
                                                                           Appendix III


        FALAH Indicators and Achievements Through December 31, 2009

To determine whether the FALAH program was achieving its main goals, we tested the
following 26 indicators excerpted from the Population Council’s “Program and Financial
Review” dated January 2010, to report to USAID/Pakistan on results achieved toward
accomplishing individual objectives and main goals. Except for two indicators (Items 20
and 24), we were provided sufficient support to verify the achievements reported by the
Population Council.

Item 1. FALAH partners held neighborhood meetings and household visits to discuss
family planning and birth spacing. These interactions reached 2,077,059 married
women of reproductive age and men, representing 32 percent of the project’s 5-year
goal.

Item 2. Greenstar Social Marketing conducted orientation meetings for influential
community members, such as religious leaders, health care providers, and media
personnel—51,464 individuals had attended nationwide as of midyear in the project.

Item 3. Almost 28,000 messages on birth spacing were aired through mass media
during November and December, 2009.

Item 4. Greenstar aired a television commercial extensively to promote a program-
branded condom during 2009. Postcampaign research estimated that over 3,200,000
men had been exposed to the commercial nationwide.

Item 5. An advocacy video included endorsements on birth spacing by prominent
religious personalities and medical professionals. The video was played on various
television channels and used in group sensitization meetings.

Item 6. FALAH issued a quarterly newsletter to reach the wider community of key
opinion leaders in the public and private sectors.

Item 7. The Rural Support Program Network introduced FALAH’s community
mobilization activities into an additional 11 districts supported by the United Nations
Population Fund.

Item 8. FALAH supported the Ministry of Population Welfare in convening a national
consultation with prominent religious leaders in July 2009, which resulted in further
support from religious leaders for promoting birth spacing.

Item 9. A team of master trainers has been fielded in each FALAH district to support
group meetings in the health care community and produce behavioral and attitudinal
change.

Item 10. The majority of managers (53 percent) in FALAH districts received leadership
training and are now guided by district-specific action plans developed during the
training.

Item 11. Existing medical, nursing, and paramedical curricula have been strengthened to
ensure that new graduates from 17 recognized medical colleges throughout the country
will benefit from a focus on family planning knowledge and skills.


                                                                                    10
Item 12. A revision of the National Standards for Family Planning, with updates on
contraceptive technology, has been completed and agreed upon with the Ministry of
Population Welfare.

Item 13. FALAH has worked with the Government of Pakistan to significantly expand
contraceptive choice by including emergency contraceptive pills, the “Standard Days
Method,” and the “Lactation Amenorrhea Method” in the National Standards for Family
Planning and in training given to all health care providers.

Item 14. The FALAH program has strengthened the capacity of eight regional training
institutes, six reproductive health services centers, three master training centers for
minilap,5 and three master training centers for vasectomy in terms of equipment,
supplies, and training of trainers.

Item 15. Training began for providers in the project districts for contraceptive logistics to
ensure that products are available when needed, with training to be completed by
August 2010.

Item 16. The Geographical Information System mapping of public and private health
facilities was completed for all of the original 20 FALAH districts; the system has become
the basis for the development of district-integrated health plans.

Item 17. Greenstar has embarked on a rural expansion strategy by training 268 of 557
new providers in rural areas of FALAH districts, including updating training materials.

Item 18. Greenstar completed refresher training for 4,305 private sector health care
providers that were already part of its franchise system. To ensure quality of training and
services provided, Greenstar has performed quality assurance checks of all 9,323 of its
providers.

Item 19. Greenstar held 2,483 clinic activities that promoted IUD6counseling and other
family planning methods, achieving 41 percent of the 5-year planned goal.

Item 20. Pilot interventions to expand private sector involvement have been initiated by
Greenstar in conducting meetings at factories and other work places, allowing workers to
be instructed on the benefits of birth spacing.

Item 21. Greenstar is using public-private partnerships to enhance delivery of services to
more rural areas, with the Population Welfare Department and the Rural Support
Programmes Network in Sindh.

Item 22. A planned system to involve community-based volunteers in distributing
contraceptives is being introduced in three Karachi townships and in the districts of
Shikarpur, Jacobabad, and Thatta.

Item 23. The curriculum for the delivery of family planning services at the Health and

5
  A minilap (or Minilaparotomy) is a form of sterilization for women, by surgical ligation of the fallopian tubes,
preventing pregnancy.
6
  An IUD (intrauterine device) is a method of contraception.


                                                                                                              11
Nutrition Development Society Midwifery and Nursing Training Institute in Karachi was
upgraded.

Item 24. A total of 4.385 million couple-years of protection have been achieved to date in
the private sectors toward a goal of 12.540 million for 5 years (35 percent of planned
goal), with the sharpest increases occurring in recent quarters.

Item 25. Greenstar has introduced measures to promote the sale of its products as well
as to expand its distribution network in rural areas.

Item 26. Greenstar is operating a national hot line service staffed by Greenstar medical
doctors.




                                                                                       12
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel.: 202-712-1150 

             Fax: 202-216-3047 

            www.usaid.gov/oig
